Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    Medicare Reimbursement For
       Critical Care Services




                     FEBRUARY 2001
                     OEI-05-00-00420
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Chicago office prepared this report under the direction of William C. Moran, Regional
Inspector General and Natalie Coen, Deputy Regional Inspector General. Principal OEI staff
included:

REGION                                              HEADQUARTERS

Linda Paddock, Project Leader                       Jennifer Antico, Program Specialist
Thomas Komaniecki, Team Leader                      Tricia Davis, Program Specialist
Michael Barrett, Program Analyst                    Brian Ritchie, Technical Support Staff
                                                    Scott Horning, Program Analyst



   To obtain copies of this report, please call the Chicago Regional Office at (312) 353-9867.
         Reports are also available on the World Wide Web at our home page address:

                                   http://www.hhs.gov/oig/oei
                        EXECUTIVE                        SUMMARY

PURPOSE

         To examine the use of and Medicare’s reimbursement for critical care codes.

BACKGROUND

         Critical care is the direct delivery of medical care for a critically ill or injured patient. To
         be considered critical, an illness or injury must acutely impair one or more vital organ
         systems such that the patient’s survival is jeopardized. Critical care is usually, but not
         always, given in a critical care area, such as the coronary care unit, intensive care unit,
         respiratory care unit, or emergency care unit. In 1999, Medicare spent $353 million on
         critical care services.

         The Health Care Financing Administration (HCFA) as well as local carriers and
         practitioners have voiced concerns regarding Medicare’s reimbursement for critical care as
         it relates to:

         <     the provision of critical care services by provider specialties not usually associated
               with critical care (e.g., podiatrists),
         <     reimbursements for services included in the critical care service which should not be
               separately billed, and
         <     excessive amounts of services billed.

         We conducted a statistical analysis of 100 percent of all critical care claims for 1998 and
         1999 and of a 1 percent sample of all Medicare claims for 1999. We spoke with staff from
         HCFA as well as six Medicare contractors regarding critical care policy and claims
         processing. We only examined the issues above; we did not conduct a medical review to
         determine whether the billing for critical care was appropriate or necessary.

FINDINGS

Ten Physician Specialties Receive the Majority of Critical Care Payments

         Internal medicine and pulmonary disease account for nearly 50 percent of critical care
         claims submitted, while eight other specialties account for approximately 40 percent. In
         1999, nurse practitioners, physician assistants, and clinical nurse specialists received
         Medicare payments for critical care services totaling $325,535 (0.09 percent of total spent
         on critical care).




Critical Care Reimbursement                                                              OEI-05-00-00420
Critical Care Services Are Not Being Unbundled

         Contractors are not paying for services that should be bundled into critical care codes.
         Based on our analysis of 1999 data, we estimate that carriers allowed only 2,900 services
         for a total of $51,800 that should have been bundled into critical care payment.

Questionable Payments for Services Have Dropped

         Carrier payments continue for services billed beyond the first hour on a given day without
         a corresponding bill for the first hour on that day, but dropped 74 percent between 1998
         and 1999.

CONCLUSION
         Based on our analysis, we found that very few problems exist in the specific areas of
         concern outlined in this report. We believe the few problems that we identified can be
         efficiently corrected by HCFA requesting carriers to refine payment system edits and
         clarify or correct local payment policy statements. Again, we must caution that we did not
         conduct a medical review to determine the appropriateness or necessity of the critical care
         provided.




Critical Care Reimbursement                       ii                               OEI-05-00-00420
                        TABLE                        OF               CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS

      Ten Physician Specialities Receive the Majority of Critical Care Payments . . . . . . . . . . . 4


          Critical Care Services Are Not Being Unbundled . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Questionable Payments for Services Have Dropped . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7





Critical Care Reimbursement                                     iii                                          OEI-05-00-00420
                               INTRODUCTION

PURPOSE

         To examine the use of and Medicare’s reimbursement for critical care codes.

BACKGROUND

         Critical care is the direct delivery of medical care for a critically ill or injured patient. To
         be considered critical, an illness or injury must acutely impair one or more vital organ
         systems such that the patient’s survival is jeopardized. This care requires that a
         practitioner make highly complex decisions to treat single or multiple vital organ systems
         failures or to prevent further deterioration of those organ systems. Care may require
         extensive interpretation of multiple data sources and the application of advanced
         technology to manage the patient. Therefore, critical care services require frequent,
         personal assessment and manipulation by a practitioner to support a patient’s life.

         Critical care is usually, but not always, given in a critical care area, such as the coronary
         care unit, intensive care unit, respiratory care unit, or emergency care unit. However,
         providing medical care to patients located in critical care areas does not automatically
         result in a patient receiving critical care services. Practitioners may provide critical care
         on multiple days provided that the patient’s condition continues to require the level of
         attention described above.

         Critical care is a time based code (i.e., the practitioner’s total duration of time spent
         providing critical care services is reported, even if the time spent is not continuous). The
         time that a practitioner can report as critical care is the time spent engaged in work
         directly related to the individual patient’s care whether that time was spent either at the
         immediate bedside or elsewhere on the floor or unit. However, a practitioner may not
         report time spent outside of the unit or off the floor as critical care because the
         practitioner is not immediately available to the patient. A practitioner may not report time
         spent that does not directly contribute to the treatment of the patient as critical care, even
         if performed in the critical care unit.

Medicare Reimbursement

         The Health Care Financing Administration (HCFA) contracts with private insurance
         companies called carriers to process bills for services delivered by physician and
         non-physician practitioners.




Critical Care Reimbursement                          1                                   OEI-05-00-00420
         Medicare reimburses physicians, as well as non-physician practitioners,1 for evaluation and

         management services, including critical care services, provided to Medicare beneficiaries. 

         Practitioners use Current Procedural Terminology (CPT)2 code 99291 to report up to the

         first hour of critical care on a given date of service. A practitioner should report less than

         30 minutes of critical care time using another evaluation and management code. To report

         each additional 30 minutes beyond the first hour of critical care, practitioners use 99292. 

         A practitioner may also use 99292 to report the final 

         15-30 minutes of critical care on a given date, after the initial hour has been billed. Only

         one practitioner may bill for a given hour of critical care even if more than one practitioner

         is providing care to a critically ill patient.


         Medicare does not pay for certain procedures when these procedures are provided on the

         same day by the same practitioner who billed for the critical care. Medicare bundles

         payment for these procedure codes into critical care codes 99291 and 99292. Examples of

         these procedures include: ventilator management, interpretation of chest x-rays and

         cardiac measurements, and vascular access procedures.


         In 1999, Medicare reimbursed practitioners over $353 million for critical care services,

         with the average rate for 99291 and 99292 services being $193.74 and 

         $94.05 respectively.


Concerns

         In 1999, the rate of reimbursement for critical care was reduced because of a change in the

         CPT definition of critical care services. Effective with the publication of 

         CPT 2001 in January 2001, the definition has again been revised and reimbursement rate

         increased. Because of HCFA’s ongoing efforts with these payment policy revisions,

         officials are interested in reviewing utilization patterns to identify unintended

         consequences of these program changes and correct any over or undervalued CPT codes. 

         Additionally, several local carriers, practitioners, and HCFA staff have voiced concerns

         regarding Medicare’s reimbursement for critical care as it relates to:


         <     the provision of critical care services by provider specialties not usually associated
               with critical care (e.g., podiatrists),
         <     reimbursements for services included in the critical care service which should not be
               separately billed, and
         <     excessive amounts of services billed.




         1	
                   Section 4511 of the Balanced Budget Act of 1997 removes the restriction on settings for services
                   furnished by nurse practitioners, clinical nurse specialists and physician assistants. Payments are
                   allowed for services furnished in all settings by these health care professionals but only if no
                   facility or other provider charges, or is paid in connection with the service. Payment is equal to
                   the lesser of 80 percent of the actual charge or 85 percent of the physician fee schedule.
         2	
                   Current Procedural Terminology is a listing of descriptive terms and identifying codes for
                   reporting medical services and procedures performed by physicians.

Critical Care Reimbursement                               2                                       OEI-05-00-00420
METHODOLOGY
         We spoke with staff from HCFA as well as staff from six regional carriers. These carriers

         represented 32 percent of critical care claims processed. We spoke with carrier staff

         regarding their processing of claims, guidance to providers, and whether they had in place

         processes for detection of potentially inappropriate payments for critical care codes. We

         further questioned staff regarding their experience with separately billed services such as

         x-rays and ventilator management. In addition, we reviewed relevant HCFA and Carrier

         Manuals regarding critical care.


         In addition to our discussions with HCFA and carrier staff, we obtained 100 percent of all

         critical care claims for 1998 and 1999 from the National Claims History Data File

         maintained by HCFA. We examined claims submitted and the processing of these critical

         care claims. We used SAS, a statistical program, to examine whether there were unusual

         patterns in the use of critical care codes by specialties or locations such as emergency

         rooms, intensive care units, or homes. We also used these data to identify 

         non-physicians providing critical care to beneficiaries. In addition, we identified claims for

         a second half-hour of critical care without a corresponding claim for the first hour of that

         care. We did not conduct a medical review to determine whether the billing for critical

         care was appropriate.


         Using a 1 percent sample of all 1999 Medicare claims, we identified providers submitting

         claims for procedures included in the critical care payment. All findings presented in this

         report are based on analysis of claims data.


         Our review was limited to the issues identified in the previous section. We did not

         conduct a medical review to determine the appropriateness or necessity of the critical care

         provided.


         We conducted our review in accordance with the Quality Standards for Inspections

         issued by the President’s Council on Integrity and Efficiency.





Critical Care Reimbursement                        3                                  OEI-05-00-00420
                                          FINDINGS

Ten physician specialties receive the majority of critical care
payments
Two specialities receive over 50 percent of Medicare’s reimbursement for critical
care

         In both 1998 and 1999, Medicare reimbursed internal medicine and pulmonary disease
         specialties over $182 million in reimbursement for critical care services. Table 1 below
         provides the top ten specialties billing for critical care services. These specialties account
         for 90 percent of all critical care bills submitted to Medicare. Fifty-four different
         specialities split the remaining 10 percent of Medicare reimbursement for critical care.

                                                    TABLE 1

                                                             1998                        1999
                                                        Allowed     Percent of       Allowed      Percent of
          Specialty                                      Dollars      Dollars         Dollars       Dollars
          Internal Medicine
                        $112,550,171      31.72%     $112,046,160         31.67%
          Pulmonary Disease
                          70,997,003      20.01%       70,518,443         19.93%
          Cardiology
                                 38,646,726      10.89%       36,029,972         10.18%
          Emergency Medicine
                         23,136,231        6.52%      24,697,832          6.98%
          Family Practice
                            20,320,736        5.73%      20,011,506          5.66%
          Critical Care Intensivists
                 15,667,979        4.42%      15,354,204          4.34%
          Multispecialty Clinic or Group Practice     14,021,552        3.95%      14,627,546          4.13%
          General Surgery                              9,408,774        2.65%       9,553,924          2.70%
          General Practice                             9,549,761        2.69%       8,695,531          2.46%
          Nephrology                                   8,654,139        2.44%       9,309,653          2.63%
          TOTAL (10 Specialties)                    $322,953,072      91.02%     $320,844,771         90.70%
          OVERALL TOTAL                     $354,804,520             100.00%     $353,760,445       100.00%
               Source: HCFA 100 Part B Claims File


Non-physician practitioners receive a small percentage of total reimbursement
for critical care services

         The Balanced Budget Act of 1997 removed the restrictions on the settings in which
         non-physician practitioners can provide services. Some local carriers and practitioners
         voiced concern that non-physician practitioners were providing increasing amounts of
         critical care. Non-physician practitioners can provide critical care as long as they are
         permitted to perform such care in the State in which they are registered. In 1998,


Critical Care Reimbursement                              4                                OEI-05-00-00420
         Medicare reimbursements for critical care provided by nurse practitioners, clinical nurse
         specialists, and physician assistants totaled $137,697. While reimbursement for these
         non-physician practitioners increased to $325,535 in 1999, payments remain less than 0.09
         percent of total spent on critical care.

Critical care services are not being unbundled
         Our review of a 1 percent sample of HCFA’s National Claims History file reveals few
         providers are submitting claims for procedures that should be included as part of the
         critical care payment and not be billed separately. Discussions with carriers reveal they
         have systems edits in place which should prevent payment for these services when
         performed by the same physician during the critical care period. Based on our analysis of
         1999 data, we estimate that carriers allowed only 2,900 services for a total of $51,800 that
         should have been bundled into the critical care payment.

Questionable payments for services have dropped
         Medicare payments for the first hour of critical care (99291) have remained constant since
         1996, while payments for additional time beyond the first hour in a day (99292) has
         dropped. Our analysis of 100 percent of critical care claims payments made in 1998
         reveals that more than 34,000 claims for code 99292 critical care services without a
         corresponding 99291 claim (more than $3.3 million in payments) were processed. In 1999
         this figure dropped by 74 percent to 8,885 claims ($928,034).

         While most carriers advise that they have systems edits in place designed to prevent this
         occurrence, one carrier provided the following scenario and local policy guidance to
         support billing for 99292 services without a corresponding 99291. If a patient is admitted
         and receives 1 ¼ hours of evaluation and management care, immediately followed by
         ¼ hour of critical care, the physician could record 1 ¼ hours under evaluation and
         management and the last ¼ hour of critical care could be coded as 99292. The local
         policy statement reads:

                   Instances when a critically ill patient is seen for the first time, either as an
                   admission E/M (evaluation and management) or on consultation or referral and this
                   service is immediately followed by a period of critical care service, the physician
                   may bill using either of these options:

                    <	        Combine and bill all services as critical care services using time spent for
                              defining billing charges.

                    <	        Bill the admission E/M or the consultation service as a separate service
                              from the critical care service. If this method is used, the time spent in
                              performing the admission or consultation cannot be included in the critical
                              care time billed. Furthermore, the admission or consultation service billed
                              must meet all of the documentation and time requirements listed under
                              CPT of those services.


Critical Care Reimbursement                              5                                 OEI-05-00-00420
         Although this analysis of the local medical policy points to a potential problem, it is
         important to note that this carrier processed few Medicare claims and paid less than
         2 percent of the national allowed dollars for critical care services in 1999. While we did
         not collect local policy guidance from other carriers processing critical care claims, the
         reduction in claims and payments for 1999 suggests this payment of 99292 without 99291
         is not a common problem.




Critical Care Reimbursement                       6                                OEI-05-00-00420
                                      CONCLUSION

         Based on our analysis, we found that very few problems exist in the specific areas of
         concern outlined in this report. We believe the few problems that we identified can be
         efficiently corrected by HCFA requesting carriers to refine payment system edits and
         clarify or correct local payment policy statements. Again, we must caution that we did not
         conduct a medical review to determine the appropriateness or necessity of the critical care
         provided.




Critical Care Reimbursement                       7                                OEI-05-00-00420
